WAIVER
SUPREME COURT OF THE UNITED STATES

Supreme Court Case

Ernest Francis

^ State of Connecticut
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check one of the following boxes:
0 Please enter my appearance as Counsel of Record for all respondents.

Q There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):
Signature-

Date: August 25,2021

(Type or print) Name Matthew A. Weiner
10 Mr.

Q Ms.

O Mrs.

□ Miss

Office of the Chief State's Attorney, Appellate Bureau

Address 300 Corporate Place

City & state Rocky Hill, CT

Zip 060^

Phone 860-258-5807
A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY

OF THIS FORM.

NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Ernest Francis, Pro Se, Inmate #176318
Carl Robinson C.I., 285 Shaker Road, Enfield, CT 06082

